Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the City of Plainfield Police DivisionPlainfield, New Jersey

GR-70-03-003


December  2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the City of Plainfield, New Jersey, Police Division (Plainfield).  The purpose of the grants is to enhance community policing.  Plainfield was awarded a total of $1,350,000 to hire 18 new police officers.

We reviewed Plainfield's compliance with six essential grant conditions and found weaknesses in three of the six areas we tested:  budgeting for officers, hiring of officers and retention of officer positions.  As a result of the deficiencies identified below, we question $147,893 in grant funds received and recommend an additional $91,918 be put to better use.1

Plainfield budgeted for a decrease in the number of locally funded law enforcement positions in the 2002 budget year.
Plainfield did not increase its police force by the number of officers funded by the COPS hiring grants.  In our judgment, the grantee is in violation of the COPS non-supplanting requirement.
Plainfield failed to retain two COPS officers for the minimum one-year budget cycle.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.